                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM




                 We received an allegation that two proposals had plagiarized a prior proposal1 that was
         awarded by NSF. Both later proposals contained material identical to material in the prior proposal.
         The PI on proposal one2 was the PI on the prior proposal and was therefore entitled to use that         .
         material. The PI on proposal two3 was a Co-PI on the prior proposal and took over as PI on the
         project when the PI on proposal one left that institution; therefore, he too was entitled to use that


                   Accordingly, this case is closed.




NSF OIG Form 2 (11/02)
